No. 20-1349

 

IN THE

Supreme Court of the United States

RACHEL THREATT,

Petitioner,
v.

RYAN THOMAS FARRELL, et al., on behalf of himself and
all others similarly situated, et al.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,891 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 27, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
